DOE/IG-0417



               AUDIT
              REPORT                           THE
                                  U.S. DEPARTMENT OF ENERGY’S
                                         MANAGEMENT OF
                                  RESEARCH AND DEVELOPMENT
                                           INTEGRATION




                                             MARCH 1998




     U.S. DEPARTMENT OF ENERGY
    OFFICE OF INSPECTOR GENERAL
      OFFICE OF AUDIT SERVICES
                                             DEPARTMENT OF ENERGY
                                                Washington, DC 20585

                                                     March 13, 1998


MEMORANDUM FOR THE SECRETARY


FROM:          Gregory H. Friedman
               Principal Deputy Inspector General


SUBJECT:       INFORMATION: Audit Report on "Audit of the Department of Energy's
               Management of Research and Development Integration"

BACKGROUND

The Congress, independent task forces, and advisory groups have pointed out the need for the
Department to improve its integration of research and development (R&D) projects. In the
past, R&D management was carried out by different program offices with the research being
performed both internally and externally to the Department. We conducted this audit to
determine whether the Department had a system in place to integrate R&D projects.

RESULTS OF AUDIT

The Department did not have a systematic process to facilitate the integration of R&D
projects. There was no process to ensure projects were jointly planned, budgeted, and
managed. Further, the Department had developed a 5-year plan for improving the integration
of basic energy research with other energy programs, but the plan was never implemented.
This resulted because the Department had not clearly established organizational responsibility
or authority for integrating research across programs. Therefore, the Department may be
missing opportunities to use R&D dollars more effectively to meet its mission.

We found that, independent of our review, you had reached similar conclusions about the
need for greater integration of the Department’s R&D programs. Consequently, the Under
Secretary has instituted a number of actions for improving the integration of R&D projects.

MANAGEMENT REACTION

Management concurred with the finding in the report and initiated corrective actions.

Attachment

cc: Deputy Secretary
    Under Secretary
AUDIT OF THE DEPARTMENT OF ENERGY'S MANAGEMENT
OF RESEARCH AND DEVELOPMENT INTEGRATION


TABLE OF
CONTENTS



               Overview

               Management of
               Research and Development Integration ....................................1


               Integration of Research and Development Projects

               Details of Finding ......................................................................3

               Recommendations and Comments ............................................8


               Appendix 1

               Under Secretary Comments .......................................................9


               Appendix 2

               Scope and Methodology ..........................................................11


               Appendix 3

               Past Studies and Reviews........................................................12
Overview

INTRODUCTION AND   The Department of Energy (Department) spent about $6.5 billion on
OBJECTIVE          research and development (R&D) activities during Fiscal Year 1997 and
                   plans to spend about $6.7 billion in Fiscal Year 1998. The management
                   of R&D was carried out by different program offices responsible for
                   areas such as defense, environmental remediation technologies, high
                   energy and nuclear physics, health and environment, and basic energy
                   research. This research was performed both internally and externally to
                   the Department. The internal research was carried out at the
                   Department's laboratories which included nine multi-program and 11
                   program-dedicated laboratories that are operated by various universities
                   and contractors. External R&D research was carried out under
                   contracts with industry, universities, public and private research
                   institutions, and R&D consortia. Instruments used to convey funding to
                   these R&D performers included Department awarded grants,
                   cooperative agreements and contracts, and laboratory-awarded research
                   subcontracts.

                   Planning, budgeting, and management of the Department's research
                   projects occurred within separate program offices. Because program
                   offices were managed independently, there was little effort to coordinate
                   the planning and budgeting of research across program lines to integrate
                   the research. In conversations with responsible R&D program officials,
                   this management approach was frequently described as "stovepiping,"
                   communications were all within the cognizant program office with little
                   or no connection to other programs, thereby resulting in fragmentation
                   of the Department's R&D programs.

                   Concerns about this management style at the Department have been a
                   long standing issue. The Department has been criticized for the lack of
                              1
                   integration between its R&D projects. Past studies and reviews have
                   found that the Department needs greater integration of its R&D
                   programs to achieve the vital mission in energy R&D more effectively.

                   The objective of this audit was to determine whether the Department
                   had a system in place to integrate research and development projects.


                   ______________________________
                   1
                    The Department defines integration of R&D projects as the effective
                   coordination and collaboration between basic and applied technology
                   research programs and across applied technology programs in planning,
                   budgeting, and management.



Page 1                                                             Management of
                                               Research and Development Integration
OBSERVATIONS AND   The Department did not have a system in place to ensure that R&D
CONCLUSIONS        projects were integrated although Congress and others had called for
                   such an approach. Specifically, there was no process to ensure projects
                   were jointly planned, budgeted, and managed. In addition, although the
                   Department had developed a 5-year plan for improving the integration of
                   basic energy research with other energy programs, it was never
                   implemented. This occurred because the Department had not clearly
                   established organizational responsibility or authority for integrating
                   research across programs. As a result, the Department may be missing
                   opportunities to use R&D dollars more effectively to meet its mission.

                   The Office of Inspector General met with a member of the Under
                   Secretary's staff on January 16, 1998. At that meeting we learned that,
                   independent of our review, the Secretary had reached similar conclusions
                   about the need for greater integration of the Department’s R&D
                   programs. We were informed that the Under Secretary is now Chair of
                   the Department's R&D Council and that he had issued a new charter for
                   the Council. The new charter specifically identified the need to improve
                   the integration between basic and applied research.




                   The audit identified a material internal control weakness that management
                   should consider when preparing its yearend assurance memorandum on
                   internal controls.


                                                                   /s/
                                                        Office of Inspector General




Page 2                                                              Management of
                                                Research and Development Integration
Integration of Research and Development Projects

Congress And Others         Over the past decade, Congress and several task forces and advisory
Called For An Integration   groups have pointed out the need for the Department to improve its
                                                         2
System                      integration of R&D projects . In 1992, Congress enacted the Energy
                            Policy Act that directed the Secretary of Energy to prepare and submit
                            to Congress a 5-year program plan for improving the integration of basic
                            energy research programs with other energy programs within the
                            Department. The plan was to include an identification and evaluation of
                            new programs, procedures, mechanisms, and related policy options that
                            could improve the integrating process.

                            In June 1995, a Task Force on Strategic Energy Research and
                            Development reported that the Department needed integration across its
                            energy research and development programs. Similarly, in September
                            1997, the President's Committee of Advisors on Science and
                            Technology (PCAST) found the need for better integration between
                            basic and applied research programs. The PCAST recommended that
                            the Department use mechanisms such as co-management and co-funding
                            to improve integration.


The Department Had Not      The Department did not have a system in place to ensure that R&D
Developed A System To       projects were integrated. Specifically, there was no process to ensure
Integrate Research And      projects were jointly planned, budgeted, and managed. In addition, the
Development Projects        5-year plan to improve integration between basic energy research and
                            other energy programs was not implemented.

                            Program managers stated that the majority of their projects were
                            planned, funded, and managed independently of other program offices
                            instead of as a system with different programs working together toward
                            a common goal. Moreover, according to managers, scientists, and other
                            officials from six major program offices to whom we spoke, there was
                            no Departmental policy, guidance or procedure that detailed how
                            integration was to occur. The projects that were integrated happened
                            more in an ad hoc fashion with little involvement from senior
                            Department management. In instances where a project was jointly
                            planned, budgeted, and managed by different program offices, it was
                            frequently the result of an initiative external to the Department. Two
                            examples of such projects were Climate Change and The Partnership For
                            A New Generation of Vehicles. Both of these projects were initiated by
                            the White House.
                            _____________________________
                            2
                              See Appendix 3 for a summary on reviews that recommended
                            integration of R&D projects within the Department.

Page 3                                                                          Details of Finding
         There was no policy or guidance that explained integration or how it
         was to be accomplished, thus leaving individuals to come up with their
         own interpretation of what integration meant and how it would be
         achieved. Program managers, scientists, and other officials believed
         integration occurred because they attended workshops where
         information was shared or because the results of their research had been
         published. It was a common belief that good communication between
         programs and researchers naturally led to effective integration.
         However, mechanisms to formalize that communication at any stage of a
         project were not developed. Therefore, senior management and others
         were often unaware of other research activities that could benefit from
         their projects.

         Front-end planning, establishing priorities, and levels of funding research
         efforts were the responsibility of the program offices. Program offices
         had their own goals, but they did not necessarily define the overall
         intended outcome of research projects. There was no system that
         required detailed plans for R&D projects between all program offices.
         Such a system would integrate basic research and technology
         development projects.

         The Science and Technology business line in the Department's Strategic
         Plan included an objective with a strategy to manage the national
         laboratories, science user facilities, and other research providers and
         facilities in a more integrated, responsive, and cost-effective way. One
         performance measure to support this strategy was "through Fiscal Year
         2000, improve science-technology integration by increasing the
         percentage of Department projects that undergo up-front coordination
         of all members by the innovation pathway, i.e. basic researchers,
         technology developers, and implementers defining needs together."
         However, because there was no system to integrate R&D projects, the
         Department may have difficulty in establishing a baseline for this
         performance measure and obtaining the necessary information to
         evaluate the effectiveness of achieving the goal and objective.

         In an effort to improve integration and meet the requirements of the
         Energy Policy Act, the Department developed a 5-year plan in 1993 for
         improving the coordination and collaboration of basic energy research
         with other energy programs. The plan contained a six-step process that
         was designed to reach out to the highest levels of the Department to
         create the opportunities for, and to remove the barriers to, improved
         integration.


Page 4                                                         Details of Finding
                      Under the 1993 plan, each Assistant Secretary was directed to set
                      aside an agreed-upon small portion of their energy R&D budget for
                      project integration and to incorporate improved integration as a
                      distinct element of the Department's annual planning and budgeting
                      cycle. In addition, the 5-year plan suggested that the Department was
                      to formulate and announce a policy strongly supporting the concept
                      that project integration was a part of every R&D manager's job and
                      the mission of every Department R&D program. The policy was to
                      endorse joint planning and implementation of basic and applied
                      research and technical development as a tool for improving the
                      Department's effectiveness.

                      This 5-year action plan represented the beginning of a Departmental
                      process that, when fully developed and implemented, was to have
                      resulted in better integration. However, it was never implemented
                      and management officials could not provide an explanation as to why.
                      Many of the Department officials interviewed about the plan were
                      unaware that it had been signed and submitted to Congress.

Authority And         The Department had not clearly assigned organizational responsibility
Responsibility For    or authority to integrate R&D projects. The Research and
Integration Had Not   Development Council (Council), which was established in response to
                                         3
                      the Galvin Report , was to coordinate and integrate R&D projects
Been Assigned
                      across the Department. However, all the members were peers,
                      Assistant and Deputy Assistant Secretaries, who had no authority
                      over programs other than their own. Further, these officials naturally
                      operated in an environment in which they were competing for the
                      Department's finite research funds. Moreover, the Council, which
                      was to report to the Under Secretary, was not given the necessary
                      authority to require all program offices to comply with directed
                      actions of the Council.

                      According to its members the R&D Council had made little progress
                      in fulfilling its charter and had a long way to go before integration
                      took place. Our review disclosed that the Council served more as a
                      vehicle to share information and as a promotional tool rather than as a
                      mechanism to integrate R&D projects. We did note, however,

                      __________________
                       3
                        Alternative Futures for the Department of Energy National
                      Laboratories, April 1995.




Page 5                                                                   Details of Finding
                          that through workshops and meetings, the Council made progress by
                          bringing attention to the fact that integration needed to be improved.

Use Of Research And       Members of the Council had not developed any policy or guidance on
Development Funds Could   the meaning of R&D project integration or the implementation of such a
Be Improved Through       program at the Department of Energy. The Council did develop an
Better Integration        action plan but many of the tasks had not been completed. According to
                          the Vice Chair and Executive Director of the Council, the action plan
                          was no longer effective and a new plan had not been developed.

                          With increased scrutiny over research expenditures, the Department's
                          challenge will be to maintain its quality research investments and assure
                          that maximum benefits are realized from R&D. Better integration of its
                          R&D projects would provide the Department with the opportunity to
                          achieve this maximization of resources to meet its science mission. If
                          more projects were jointly planned, budgeted, and managed, each
                          program office would have general knowledge of what other program
                          offices were doing.

                          In addition, such knowledge would help prevent unplanned duplicate
                          research efforts. A prior Office of Inspector General report dated
                          August 23, 1996, identified duplication of research activities caused by a
                          lack of integration. The "Audit of the Management of the Cooperative
                          Agreement with Texas to Fund the Amarillo National Resource Center
                          for Plutonium" found that the Department had limited involvement in the
                          Center's research projects and had not provided adequate management,
                          direction, and control to ensure that the Center's activities were benefi-
                          cial and not duplicative. In addition, a subsequent review performed by
                          the Department's Office of Fissile Materials Disposition, showed that
                          during the first 2 years of the Center's operation, the Department had
                          funded about $1.8 million for research that duplicated research con-
                          ducted at the Department's national laboratories. The unnecessary du-
                          plication occurred because the roles and responsibilities for coordinating
                          the research efforts were not clearly defined.

                          In contrast, the Department has demonstrated effective coordination of
                          the efforts of program managers and scientific and technical information
                          professionals on at least one major project at its Combustion Research
                          Facility (CRF), a user facility where programs and disciplines are co-
                          located. According to Department officials, the Petro Environmental
                          Research Forum (PERF) project at the CRF successfully demonstrated



Page 6                                                                          Details of Finding
         how integrating basic and applied research can help solve an industry
         problem. The PERF project was jointly planned, budgeted, and
         managed between the Offices of Energy Research, Energy Efficiency
         and Renewable Energy, and the Gas Research Institute. Each entity
         provided funds, personnel, and time to work on enhancing the design of
         industrial burners. The project had a mission, specific goals, established
         timelines, and an expected output that was understood by all
         participants. The responsible Program Manager at the CRF stated that
         without integration, the design of industrial burners would not have
         been improved. Without this improvement new tools needed to meet
         new emissions standards would not have been developed.

         The lack of a system for integration prevents the establishment of a
         baseline for performance measures, which enable management to
         identify areas needing attention and opportunities for improvement.
         Performance measurement information is needed to evaluate annual
         accomplishments and gauge progress toward the Department's long-
         term strategic objectives for research integration. In addition, the
         Government Performance and Results Act of 1993 will require annual
         performance plans that complement the Strategic Plan. The annual
         plans will set annual goals with measurable target levels of
         performance, and annual program performance reports that compare
         actual performance to the annual goals.

         We were pleased to learn that, concurrent with our review, the Under
         Secretary had been working to improve the integration and alignment
         of the Department's laboratories with the Department's missions. At a
         meeting with a member of the Under Secretary's staff in January 1998,
         we learned that the Under Secretary will now chair the R&D Council
         and that a new charter has been issued. The purpose of the Council
         will be to coordinate and integrate R&D across the Department,
         thereby improving the linkage between basic and applied research and
         technology development. The Council is also responsible for
         facilitating more effective planning, budgeting, management, and
         evaluation of the Department's Energy R&D Programs.




Page 7                                                        Details of Finding
RECOMMENDATIONS   To facilitate the Under Secretary's efforts to improve the management of
                  R&D projects, we recommend that organizational authority and
                  responsibility be formally designated to ensure a system is in place to
                  integrate R&D projects, when applicable. The designated organization
                  should, as a minimum:

                         1. Reevaluate, update, and reissue the action plan developed in
                            1993 to incorporate integration mechanisms such as joint
                            planning, budgeting, and management across programs.
                            Responsibility should be assigned to ensure that the steps in the
                            plan are implemented.

                         2. Consider consolidating the Council and any other groups such
                            as the Energy Resources Board into one group whose purpose
                            would be to assist in the implementation of actions necessary
                            to establish a system to improve integration across the
                            Department.

                          3. Require each R&D project to have a plan that shows how the
                             research ties into the Department's mission and as a minimum,
                             include the goals, timeline, and expected output from the
                             research.


MANAGEMENT         The Under Secretary concurred with the finding in the report and stated
REACTION           that individual programs at the Department need to do a better job of
                   integrating their research programs with one another to support the
                   Department's missions and the nation's future. He advised us of a
                   number of alternative actions for improving the integration of R&D
                   projects that appear to meet the intent of our recommendations.
                   Specifically, the R&D Council, now chaired by the Under Secretary,
                   had its responsibilities expanded and accountability to the Department
                   strengthened to more fully integrate and manage R&D both within and
                   across program areas. In addition, each of the Department's four busi-
                   ness lines have been directed to develop technology roadmaps that will
                   serve as a primary tool to "strategically manage" the cross-cutting R&D
                   needs and capabilities of the Department. The Under
                   Secretary's comments on the report have been included in their entirety
                   in Appendix 1.


AUDITOR            Management's comments provided alternative actions that are
COMMENTS           responsive to the recommendations in this report.

Page 8                                               Recommendations and Comments
Appendix 1


                                             March 9, 1998


MEMORANDUM FOR:               Gregory H. Friedman
                              Principal Deputy Inspector General

FROM:                         Ernest J. Moniz
                              Under Secretary

SUBJECT:                      Management Response to Draft Report on "Audit of the Department of
                              Energy's Management of Research and Development Integration"

Management concurs in the findings of the report.

DOE's important national missions can only be accomplished with strong R&D programs. But the individual
programs at DOE need to do a better job of integrating their research programs with one another to support
the Department's missions and the nation's future. At the same time, the DOE laboratories must be viewed as
the valuable national system that they are, and not simply as a set of independent institutions. The
cross-disciplinary excellence displayed at so many laboratories will be enhanced by increasing the collabora-
tion between the DOE laboratories. DOE needs to turn the laboratories into a fully integrated DOE
laboratory system.

DOE must continue to improve the laboratory governance system and the overall management of the
laboratories. The Galvin Report, the Institute for Defense Analyses "120-Day Study," and recent Laboratory
Operations Board reports -- all of which the Department strongly supported -- raise important management
issues. The Department has already made substantial progress on many of these issues, though much work
remains to be done.

The DOE laboratory system is a prized national asset. The responsibility to maintain and improve the
excellence of that asset is one of the most important responsibilities facing any Secretary of Energy. His
specific charge to the new Under Secretary was to see to the steady improvement and integration of DOE's
R&D program. The specific actions undertaken by the Secretary and Under Secretary since November 1997
include the following:




Page 9                                                                       Under Secretary Comments
(1)     R&D Council. DOE is expanding the responsibilities and strengthening the accountability of the DOE
R&D Council. The Council, now chaired by the Under Secretary, comprises the principal secretarial officers
who oversee most DOE R&D programs. It has a new charter, issued on January 13, 1998, to more fully
integrate and manage the Department's R&D, both within and across program areas. The Council is being
used as a forum to ensure the DOE R&D program fully integrates the requirements and capabilities of all
DOE program areas and laboratories, as well as the requirements and capabilities of DOE's partners -- e.g.,
DoD (requirements) and industry and academia (R&D capabilities). In addition to providing stronger high
level guidance, support, and leadership to the entire R&D enterprise, the R&D Council will be responsible for
the oversight and implementation of numerous R&D management improvements.

(2)     Technology Roadmaps. Technology roadmaps address specific scientific and technical problems by
defining goals, engaging in a consensus building process with R&D performers and stakeholders, and
developing R&D plans most likely to achieve success. Technology roadmaps will serve as a primary tool with
which to "strategically manage" the cross-cutting R&D needs and capabilities of the Department. In
particular, they will be used to meld the individual DOE laboratories into a stronger and more integrated
national laboratory system. They will be used to establish clear linkages between DOE missions, the programs
designed to accomplish those missions, the technologies required to make those programs successful, and the
specific R&D programs or tasks required to "produce" those technologies. The roadmaps will be developed
along the Department's business lines, under the guidance of the corresponding R&D Council Working
Group. In addition, cross-cutting roadmaps will be developed to strengthen enabling technologies for
multiple missions.

The R&D Council has directed that each of the four DOE business lines develop and present for review
roadmaps in critical technology areas. By encouraging the development of roadmaps that connect program
objectives with a "bottom-up" scientific and technical definition of problems, the Department can better
define, review, improve, and adapt plans to accomplish what are often highly complex missions. This process
is moving forward with the full cooperation of the national laboratory directors. Several prototype roadmaps
will be completed by the summer of 1998. A schedule will be developed, by the summer of 1998, for the
completion of the remaining roadmaps.

(3)     The Selection of R&D Performers. The Department, under the guidance of the R&D Council, will be
intensifying its evaluation of the ways in which grants and contracts are awarded, including technology
transfer and partnership agreements, to ensure they are made on the basis of sound scientific and technical
review. This evaluation will, in particular, consider the important role of peer review, and the adequacy of
competition in the making of awards.




Page 10                                                                      Under Secretary Comments
Appendix 2

SCOPE         The audit was performed between June and December 1997. We
              focused on evaluating how the Department was integrating basic and
              applied research projects at senior management levels. We did not,
              however, as part of this audit effort, evaluate the current status of
              integration at the laboratories.


METHODOLOGY   To accomplish our objective, we obtained and reviewed applicable laws
              and Departmental orders pertaining to R&D integration. We also
              reviewed related reports issued by the Office of Inspector General, the
              General Accounting Office, and various Task Force and Advisory
              Groups. Discussions were held with various committees established to
              improve integration and with senior Department Officials and Program
              Managers from the offices of: Energy Research, Fossil Energy, Defense
              Programs, Nuclear Energy, Energy Efficiency and Renewable Energy,
              and Environmental Management. These discussions covered the
              Department's response to critics for the lack of integration, what actions
              were planned to improve integration, and how the program offices were
              integrating R&D projects.

              Reviews were performed to determine the effectiveness of established
              coordinating committees and groups, what the barriers to integration
              were and how they could be removed. Site visits were made to the
              Combustion Research Facility at Sandia National Laboratory and
              Lawrence Livermore National Laboratory both in Livermore, California.
              We performed analyses to determine the benefits received from joint
              planning, budgeting, and management of combustion projects and
              determined what interactions and guidance the field had received from
              Headquarters pertaining to integration. We also reviewed the
              Department's Strategic Plan, dated September 1997, to determine
              whether performance measures had been developed that related to the
              integration of R&D projects.

              The audit was made in accordance with generally accepted Government
              auditing standards for performance audits and included tests of internal
              controls and compliance with laws and regulations to the extent
              necessary to satisfy the audit objective. Accordingly, we assessed
              internal controls regarding the integration of R&D projects. Because
              our review was limited, it would not necessarily have disclosed all
              internal control deficiencies that may have existed. We did not rely on
              computer-processed data to accomplish our audit objective.




Page 11                                                     Scope and Methodology
Appendix 3

             Past studies and reviews dating from 1986 to 1997, that found the
             Department needed greater integration of R&D projects were:

             • The Coordination of Long-Term Energy Research and Development
               Planning, Report Number DOE/IG-0232, dated November 1986.
               This report discussed the Department's lack of a unified long-term
               R&D plan. It was recommended that the Secretary of the
               Department direct the appropriate office to develop, coordinate and
               publish a Departmental order regarding the program planning
               process.

             • Alternative Futures for the Department of Energy National
               Laboratories (Galvin Report) dated April 1995. This report stated
               that the Department should achieve greater integration among its
               applied programs and between applied and basic energy research
               performed at the labs.

             • Energy R&D: Shaping our Nation's Future in a Competitive World
               (Yergin Report) dated June 1995. This report discussed the need for
               integration across the Department's energy research and
               development programs.

             • Management of the Cooperative Agreement with Texas to Fund the
               Amarillo National Resource Center for Plutonium, Report Number
               WR-B-96-08, dated August 1996. This report discussed duplication
               of research activities caused by a lack of integration.

             • The Laboratory Operations Board, in September 1997, reported
               that greater integration across R&D programs was needed and that it
               was not clear whether adequate joint planning was taking place.

             • The President's Committee of Advisors on Science and Technology,
               in September 1997, found that there needed to be better integration
               between basic and applied research programs. They recommended
               the Department use mechanisms such as co-management and co-
               funding to make this improvement.




Page 12                                                Past Studies and Reviews
                                                                             IG Report No. DOE/OIG-0417

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                       following alternative address:


                Department of Energy Human Resources and Administration Home Page
                                     http://www.hr.doe.gov/ig

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.

                                   This report can be obtained from the
                                       U.S. Department of Energy
                              Office of Scientific and Technical Information
                                               P.O. Box 62
                                      Oak Ridge, Tennessee 37831
